EXHIBIT F

On Fri, Oct 26, 2018 at 6:45 AM Maribeth Meluch <mmeluch@isaacwiles.com> wrote:
David,
Mr. Maiden will provide three (3) days notice to the Madejs of any pothole patching or
other maintenance work on the 2 mile section of Dutch Creek Road. That is at least two
days more notice than given previously. For any serious major repaving work he will
provide them thirty (30) days notice. For the time period running through any appeal or
the expiration of any appeal date without an appeal, Mr. Maiden will also notify us and
we will forward the notice to you. After that time period the Madejs will be responsible
for notifying her counsel of notices received from the Athens County Engineer.
From: David Ball <dball@rosenbergball.com>
Sent: Tuesday, October 23, 2018 2:03 PM
To: Maribeth Meluch <mmeluch@isaacwiles.com>; Molly R. Gwin
<mgwin@isaacwiles.com>
Cc: Khan, Fazeel S. <fazeel@ohiolawyersgroup.com>; David Ball
<dball@rosenbergball.com>
Subject: request for clarification
Maribeth and Molly:
We would appreciate it if you could clarify the Athens County Engineer's
comments in Sunday's edition of The Athens Messenger. The article (both
pages attached) indicates that he will begin the reconstruction/resurfacing
planning process now, and schedule the work when funding is
available. Further, it states that maintenance work consisting mainly of
pothole patching and grading, however, will be done in the near term -- this
fall and winter. He is also quoted as stating, "I will notify the Madejs well in
advance before doing road work on that section of Dutch Creek Road."
We have a couple of questions. First, will he notify the Madejs well in
advance of doing any road work, including pothole patching, grading or
leveling?
Second, the judge suggested notice "far in advance," and the Engineer said
"well in advance." Can you give us a sense of what the Engineer means by
"well in advance"?
Again, we would appreciate any clarification that you can provide. As for the
means of notice, we would request notice to Fazeel Khan and myself as a
reliable method. Please let us know if that is acceptable.
Very truly,
Dave Ball

David T. Ball 造 Partner
Rosenberg & Ball Co., LPA
Mailing Address: 395 North Pearl Street 造 Granville, OH 43023
Office Address: 130 N. Prospect Street, Suite F 造 Granville, OH 43023
t (614) 316-8222
dball@rosenbergball.com 造 www.rosenbergball.com

